DOE F 1325.8
(08-93)
United States Government                                                               Department of Energy


Memorandum
        DATE:    February 26, 2009                            Audit Report Number: OAS-L-09-05
    REPLY TO
    ATTN OF:     IG-30 (A08FN009)
     SUBJECT:    Report on "The Department of Energy's implementation of Revised OMB Circular
                 NO. A-123"
           TO:   Chief Financial Ot'ficer, CF-1

                 INTRODUCTION AND OBJECTIVE

                 The Office of Management and Budget's (OMB) revised Circular No. A-123 (A-
                 123) requires Federal agencies to assess, document and test their internal controls
                 over financial reporting and prepare an annual assurance statement on the
                 operating effectiveness of those controls. In Fiscal Year (FY) 2006, the
                 Department of Energy (Department) began a three year phased approach to
                 implement A-123 and, in FY 2008 it completed its third and final phase of
                 implementation.

                 Our prior reviews of the tirst and second phases of the Department's
                 implementation of A-1 23 found that the Department was making good progress
                 and that it properly disclosed that its implementation was a work in process. For
                 these years, the Department reported the limited scope of its internal control
                 assessment and qualified its assurance statement to reflect a planned completion
                 date of FY 2008. Our FY 2007 review also disclosed that, late in the year, the
                 Office of Finance and Accounting within the Office of Chief Financial Officer
                 (OCFO) added a substantial number of processes to its internal control assessment
                 activities, including processes associated with the reporting of environmental
                 liabilities. The Office of Finance and Accounting concluded that these processes
                 were high risk. and planned to complete their documentation, evaluation and
                 testing in FY 2008. We conducted this review to determine whether the tinai
                 phase of the Department's implementation of A-1 23 conformed to established
                 requirements.

                 CONCLUSION AND OESERVATIONS

                 Our FY 2008 review concluded that the Department's assessment, documentation
                 and testing of internal controls over financial reporting as of June 30, 2008,
                 generally conformed to the requirements established by OMB. In its FY 2008
                 Agency Financial Report Management Assurances, the Department reported that
                 it had completed its baseline assessment and evaluation of internal controls that
                 was initiated in FY 2006 and provided reasonable assurance that controls were
                 working effectively.
Our review disclosed that while the Department completed its baseline assessment
and evaluation of intenlal controls, minor documentation issues existed for testing
and remediation performed during the final phase of implementation.
Specifically, documentation was not provided to adequately support either tests
performed, existence or quality of control documents, andlor corrective actions
taken for a number of controls reviewed at the National Energy Technology
Laboratory (NETL). In addition, NETL and the National Nuclear Security
Administration (NNSA) Service Center documented remediation efforts in the
Department's tracking system, also known as the Assessment and Reporting Tool.
rather than the Department's recommended corrective action plan format. The
Department's preferred format includes approvals and other tracking information
that provide a more robust audit trail. An official from the OCFO believed that
additional clarity in its documentation guidance could help eliminate these
problems in the fluture.

With respect to the processes added to the original baseline assessment by the
Office of Finance and Accounting, we found additional issues associated with the
documentation of corrective actions. In particular, while the Office of Finance
and Accounting had completed testing of the majority of the controls that it added
in late FY 2007 and thereafter, it had not prepared corrective action plans for most
of the controls requiring remediation.

We found nothing to indicate that the internal control assessment and test work at
these sites was incomplete. Instead, the issues we found related primarily to the
extent to which the work was properly documented. We view the completeness of
documentation as an important part of a successful A-123 program. Accordingly,
we offer the following suggestions:

SUGGESTED ACTIONS

    1. NETL should ensure that documentation supporting all control test work
       performed and corrective actions taken is prepared and maintained to be
       readily available in support of external reviewlaudit;

    2. The 1Ieadquarters A- 123 Project Mariagement Team should clarify
       documentation guidance to help ensure that local corrective action plans
       contain sufficient and consistent information to demonstratelvalidate the
       actions taken; and,

    3. The Office of Finance and Accounting, NETL and the NNSA Service
       Center should use the corrective action plan formatslcriteria prescribed by
       the A- 123 Project Management Team to document future remediation of
       control deficiencies.

No formal recommendations are being made in this report and a formal response
is not required.
We appreciate the cooperation of your staff and the various Departmental
elements that povided




                                    Rickey d. Hass
                                    Deputy Inspector General
                                      for Audit Services
                                    Office of Inspector General

Attachment

cc: Administrator, National Nuclear Security Administration
    Office of the Under Secretary of Energy
    Acting Director, Office of Science
    Chief of Staff
                                                                             Attachment



SCOPE AND METHODOLOGTI

We examined the Department's implementation of the revised OMB Circular No. A-123,
Appendix A, regarding evaluation of and reporting on internal controls. The evaluation
was performed between July 2008 and February 2009.

We conducted interviews of officials in the Headquarters Office of Chief Financial
Officer who were responsible for implementation and monitoring of the revised
requirements; reviewed the Office of Chief Financiai Officer at Headquarters; undertook
site visits to the NNSA Service Center, the Los Alarnos National Laboratory, the
National Energy Technology Laboratory, the East Tennessee Technology Park, and the
Oak Ridge Financial Service Center. We assessed the FY 2008 Agency Financial
Report as it relates to OMB Circular No. A-123 to determine whether the results of site
and program office evaluations were accurately reported.

Our limited review was made in accordance with generally accepted Government
auditing standards and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy our objective. Accordingly, we assessed
internal controls related to the implementation process. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our evaluation. We did not rely on computer-processed data to
accomplish our audit objective. We discussed the results of our review with
management, who agreed with the issues we reported.
